TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Procedures Need to Be Updated to Ensure
                   Proper Determinations of Tax Relief for
                      Taxpayers Affected by Disasters



                                        February 16, 2012

                              Reference Number: 2012-40-015




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                  HIGHLIGHTS


PROCEDURES NEED TO BE UPDATED                         documentation, there is no evidence to support
TO ENSURE PROPER DETERMINATIONS                       the determination for external stakeholders.
OF TAX RELIEF FOR TAXPAYERS                           Finally, the IRS did not always timely release
AFFECTED BY DISASTERS                                 disaster relief indicators from individual tax
                                                      accounts. Our analysis of tax accounts as of
                                                      December 31, 2010, identified 597,513
Highlights                                            individual tax accounts with an erroneous active
                                                      disaster relief indicator. This was subsequently
Final Report issued on                                corrected when the IRS moved these accounts
February 16, 2012                                     back to the Individual Master File. Although the
                                                      disaster relief indicators were not timely
Highlights of Reference Number: 2012-40-015           released, none of the individuals received
to the Internal Revenue Service Commissioner          erroneous tax relief benefits.
for the Small Business/Self-Employed Division.
                                                      WHAT TIGTA RECOMMENDED
IMPACT ON TAXPAYERS
                                                      TIGTA recommended that the Commissioner,
The purpose of the Disaster Assistance Program        Small Business/Self-Employed Division, ensure
is for the IRS to provide tax relief to taxpayers     that guidelines are updated to reflect the current
affected by major disasters or emergencies.           processes and procedures used to assess
During these stressful and extraordinary              Federally declared disasters and grant tax relief
situations, taxpayers and tax practitioners           to affected individuals and businesses.
require disaster assistance to enable them to         Guidelines should include a detailed description
meet their obligations for filing tax returns or      of the assessment and documentation prepared
paying taxes without being penalized.                 for the review of the unique facts and
                                                      circumstances of each disaster, including the
WHY TIGTA DID THE AUDIT                               severity and scope of damage, when
Each year disasters or emergencies affect             determining the disaster relief period and type of
millions of individuals and businesses                tax relief to be granted. TIGTA also
throughout the United States. Complete and            recommended that the IRS develop
accurate IRS guidelines are needed to ensure          programming to systemically release the
affected taxpayers are provided appropriate tax       disaster relief indicators on tax accounts stored
relief. The overall objective of this review was to   on a database other than the Individual Master
assess the efficiency and effectiveness of the        File.
IRS’s disaster relief assistance.                     In its response to the report, the IRS agreed with
                                                      our recommendations. The IRS plans to revise
WHAT TIGTA FOUND
                                                      the Internal Revenue Manual to reflect current
The IRS has developed processes and                   processes and procedures utilized by the
procedures that help ensure taxpayers                 Disaster Program Office, which will include
adversely affected by a major disaster or             procedures to determine appropriate relief
emergency are afforded tax relief. However, the       levels. The IRS also plans to ensure that
IRS Disaster Assistance Program guidelines            programming is in place to systemically release
were incomplete and inaccurate. They did not          disaster relief indicators for tax accounts stored
reflect the processes and procedures used by          in a database other than the Individual Master
employees to assess disasters and grant tax           File.
relief to affected individuals and businesses.
In addition, the Program Office is not
documenting the assessment of the severity and
scope of damage for each Federally declared
disaster when determining the length and type of
tax relief to be granted. Without formal
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          February 16, 2012


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Procedures Need to Be Updated to Ensure Proper
                             Determinations of Tax Relief for Taxpayers Affected by Disasters
                             (Audit # 201140034)

 This report presents the results of our review to assess the efficiency and effectiveness of
 the Internal Revenue Service’s disaster relief assistance. This audit was included in our
 Fiscal Year 2011 Annual Audit Plan and addresses the major management challenge of
 Taxpayer Protection and Rights.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by
 the report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.
                     Procedures Need to Be Updated to Ensure Proper Determinations
                            of Tax Relief for Taxpayers Affected by Disasters




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          IRS Disaster Assistance Program Guidelines
          Are Incomplete and Inaccurate ..................................................................... Page 5
                    Recommendation 1:.......................................................... Page 7

          Disaster Relief Indicators Were Not Always
          Timely Released............................................................................................ Page 8
                    Recommendation 2:.......................................................... Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Outcome Measure ................................................................ Page 16
          Appendix V – Management’s Response to the Draft Report ....................... Page 17
       Procedures Need to Be Updated to Ensure Proper Determinations
              of Tax Relief for Taxpayers Affected by Disasters




                       Abbreviations

CADE             Customer Account Data Engine
FEMA             Federal Emergency Management Agency
IRS              Internal Revenue Service
               Procedures Need to Be Updated to Ensure Proper Determinations
                      of Tax Relief for Taxpayers Affected by Disasters




                                      Background

Each year disasters or emergencies affect millions of individuals and businesses throughout the
United States. During these stressful and extraordinary situations, taxpayers and tax practitioners
require disaster assistance to enable them to meet their tax obligations.
When a disaster or emergency occurs and if the
situation is beyond the capabilities of local and State
authorities, the Governor of the affected State             During Calendar Years 2010
requests that the President of the United States            and 2011 (through June 30),
                                                              there were 128 Federally
declare a major disaster or emergency. When a              declared disasters throughout
disaster is Federally declared, immediate                         the United States.
notification is made to the Governor, members of
Congress, and the Federal Emergency Management
Agency (FEMA). At that time, the FEMA appoints one of its employees as the Federal
Coordinating Officer to assess the damage and make an initial appraisal of the types of relief
most urgently needed by the affected citizens and public officials. The FEMA also coordinates
with all Federal disaster assistance programs, including that of the Internal Revenue Service
(IRS).
After the FEMA assesses the damage, it issues a Disaster Declaration to notify the IRS Disaster
Assistance Program Office of general disaster information and the specific counties within the
disaster area designated as eligible for assistance. There are three types of assistance given by
the FEMA:
      Emergency Measures – Include actions before, during, and after a disaster to save lives,
       protect public health and safety, and prevent damage to improved public and private
       property.
      Public Assistance – Provides assistance to State and local governments for the repair or
       replacement of disaster-damaged public facilities. The Public Assistance Grant Program
       provides grants to State and local governments and certain private nonprofit agencies to
       respond to disasters, recover from their impact, and mitigate the impact from future
       disasters.
      Individual Assistance – Provides assistance to families and individuals. Federal
       assistance is available for individuals and businesses in need of temporary housing,
       unemployment payments, housing repairs, medical assistance, and similar types of
       benefits.



                                                                                            Page 1
                    Procedures Need to Be Updated to Ensure Proper Determinations
                           of Tax Relief for Taxpayers Affected by Disasters



The IRS relies on the specific type of assistance the FEMA gives to determine if it should
provide disaster assistance. The IRS grants tax relief only to those individuals and businesses
located in counties given Individual Assistance by the FEMA. Once Individual Assistance is
given by the FEMA to the specific counties impacted by the disaster, the IRS Disaster Assistance
Program Office prepares an internal Disaster Relief Memorandum1 to provide key IRS functions
with a summary of the tax relief. Individuals and businesses located in those counties eligible
for tax relief are identified by zip code.
To provide tax relief to these individuals and businesses, the IRS places a disaster relief indicator
on their tax accounts. The disaster relief indicator is intended to postpone the time to file tax
returns and pay taxes and to abate penalty and interest on current taxes due. In the most
catastrophic disasters, tax relief includes suspending certain activities (e.g., collection of
delinquent taxes, performance of audits). In addition to the disaster relief indicator, additional
information is placed on the tax accounts, including a FEMA number that identifies the Federally
declared disaster and the disaster relief period (beginning and ending dates). Figure 1 provides
key statistics on the 34 Federally declared disasters for which taxpayers were granted tax relief
during the period covered by our review (Calendar Years 2010 and 2011 (through June 30)).
                         Figure 1: Key Statistics of IRS Disaster Assistance
                         in Calendar Years 2010 and 2011 (Through June 30)
                                                                                    Calendar Year
                                                                                                      2011
                                                                            2010
                                                                                                (through June 30)
     Disasters for Which Tax Relief Was Granted                               18                         16
     Individuals Granted Tax Relief                                      27,063,733                 16,196,810
     Businesses2 Granted Tax Relief                                       4,105,853                   3,041,566
                     3
     Other Entities Granted Tax Relief                                    2,026,302                     508,073
                              Total                                   33,195,888                    19,746,449
    Source: http://www.icce.irs.gov/fema, Individual Master File, and Business Master File.5
                                                                 4




1
  A Disaster Relief Memorandum is an internal document issued to notify IRS personnel that tax relief has been
granted associated with a Federally declared disaster. It includes a summary of the relief (such as the counties
eligible for tax relief), the disaster relief period (beginning and ending dates), and the type of tax relief granted.
2
  Businesses include corporations, partnerships, etc.
3
  Other entities include trusts and estates.
4
  The IRS database that maintains transactions or records of individual tax accounts.
5
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
                                                                                                                  Page 2
               Procedures Need to Be Updated to Ensure Proper Determinations
                      of Tax Relief for Taxpayers Affected by Disasters



This review was performed at the IRS Disaster Assistance Program Office, Small
Business/Self-Employed Division, Stakeholder Liaison Headquarters, and Modernization and
Information Technology Services Headquarters located in Lanham, Maryland, during the period
April through September 2011. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                            Page 3
                  Procedures Need to Be Updated to Ensure Proper Determinations
                         of Tax Relief for Taxpayers Affected by Disasters




                                      Results of Review

The IRS has developed processes and procedures that help ensure taxpayers adversely affected
by a major disaster or emergency are afforded tax relief. These processes and procedures
include:
       Establishing the Disaster Assistance and Emergency Relief Program Office. This office
        has overall responsibility for the IRS’s disaster assistance and emergency relief efforts.
        This office has primary responsibility for determining and coordinating disaster relief
        activities, including serving as the IRS’s representative to the FEMA and other Federal
        and State agencies.
       Ensuring disaster assistance is provided to eligible individuals and businesses when
        Individual Assistance is given by the FEMA. Our analysis of the 34 Federally declared
        disasters for which tax relief was granted showed that the IRS accurately identified
        individuals and businesses located in zip codes eligible for tax relief and timely and
        accurately input disaster relief indicators on their tax accounts.
       Providing IRS presence at FEMA Disaster Recovery Centers. As part of the IRS’s
        disaster relief efforts, specific IRS employees have been designated as State Disaster
        Assistance Coordinators. These employees provide assistance to affected taxpayers by
        answering tax questions and ensuring tax forms and publications are available. For
        example, IRS employees were present at FEMA Centers for 26 (76 percent) of
        34 disasters for which tax relief was granted and assisted more than 3,500 taxpayers. For
        the remaining eight disasters for which taxpayers were granted tax relief, IRS employees
        were not present because FEMA Centers were not set up or IRS presence was not
        requested by the FEMA.
       Providing IRS operating divisions and functions with notification, guidance, and support
        when disasters are Federally declared. For each of the 128 disasters that occurred and the
        34 disasters for which tax relief was granted in Calendar Years 2010 and 2011 (through
        June 30), the Program Office issued Disaster Declarations6 and Disaster Relief
        Memorandums to personnel in IRS operating divisions and functional areas.
       Communicating to individuals and businesses affected by a Federally declared disaster
        that tax relief has been granted. The IRS takes a number of steps to alert individuals and

6
  An IRS Disaster Declaration (as opposed to the Disaster Declaration issued by FEMA that was mentioned earlier)
is an internal document issued to notify IRS functions that a disaster or emergency has been Federally declared. It
includes general disaster information such as the date that the disaster was Federally declared, impacted State(s),
FEMA number, type of incident, incident period, and types of assistance given by the FEMA.
                                                                                                            Page 4
                    Procedures Need to Be Updated to Ensure Proper Determinations
                           of Tax Relief for Taxpayers Affected by Disasters



           businesses affected by a Federally declared disaster. These steps include news and press
           releases, informational postings on IRS.gov, and sending stuffer Notice 1155, Disaster
           Relief from the IRS, to taxpayers eligible for tax relief who have prior tax issues (i.e.,
           delinquent taxes and tax returns). See Figure 2 for an excerpt from Notice 1155.
                        Figure 2: Notice 1155, Disaster Relief from the IRS




       Source: IRS Notice 1155.

      Providing a dedicated toll-free disaster hotline for individuals and businesses to obtain
       information regarding disaster assistance and providing the ability for individuals and
       businesses that may not reside in a disaster area to seek tax relief. During Fiscal Year 2010,
       the IRS indicated 50,550 calls were received on its disaster assistance hotline. In addition,
       1,084 individuals and 132 businesses were manually granted disaster tax relief in Calendar
       Year 2010.
                           A tax practitioner’s records were destroyed in a Federally declared
           Example         flood, but some of the practitioner’s clients did not reside in the area
                           given Individual Assistance; therefore, the IRS did not grant tax relief to
       those clients. Those clients can self-identify and obtain tax relief by calling the IRS Disaster
       Hotline. The IRS will manually input the disaster relief indicator on their tax accounts.7

IRS Disaster Assistance Program Guidelines Are Incomplete and
Inaccurate
The IRS Disaster Assistance Program has effective processes and procedures for assessing
Federally declared disasters and granting tax relief to affected individuals and businesses.
However, the processes and procedures are not completely and accurately documented in its
guidelines. For example, the Disaster Assistance Program Office does not document the


7
    This is a hypothetical example.
                                                                                                 Page 5
               Procedures Need to Be Updated to Ensure Proper Determinations
                      of Tax Relief for Taxpayers Affected by Disasters



assessment of the severity and scope of damage for each disaster when determining the length
and type of tax relief to be granted. Personnel assigned to the Disaster Assistance Program have
extensive experience when assessing the severity and scope of damage for disasters and granting
tax relief to affected taxpayers. However, if changes in personnel occur, the continuity of the
assessments could be at risk as a result of not documenting these processes in the guidelines.
The Internal Revenue Manual is the IRS’s principal guideline and includes Disaster Assistance
Program processes and procedures, such as administrative and cross-functional guidance for
responding to disasters or emergencies. These guidelines should be the primary source for
instructions that IRS staff need to carry out their responsibilities in administering the Disaster
Assistance Program.
Our review found that the guidelines do not always accurately reflect the Disaster Assistance
Program processes and procedures that are used by employees to assess Federally declared
disasters and grant tax relief to affected individuals and businesses. For example, procedures
were not updated on the following processes:
      FEMA Assessment – The Disaster Assistance Program Office uses the FEMA’s
       assessment of a Federally declared disaster when determining if tax relief will be granted.
       Specifically, tax relief is granted for all disasters where the FEMA provides Individual
       Assistance. The guidelines state that the FEMA assessment is “generally” used when, in
       fact, it is the sole basis for the IRS granting tax relief.
      Identification of Disaster Areas – The Disaster Assistance Program Office prepares a
       Disaster Relief Memorandum that includes the various counties identified by the FEMA
       for Individual Assistance and the tax relief granted by the IRS. This Memorandum is
       provided to the Modernization and Information Technology Services function, which
       then identifies the zip codes within the counties granted tax relief using a United States
       Postal Service software package. Disaster relief indicators are placed on the tax accounts
       of businesses and individuals residing within these zip codes. The guidelines incorrectly
       state that the Program Office identifies the zip codes using information from the United
       States Census Bureau.
      Assessment of Disaster Severity and Scope of Damage – The Disaster Assistance
       Program Office has no process to document the assessment of the severity and scope of
       damage (see below). The guidelines incorrectly state that the Program Office assesses
       the severity and scope of each disaster and documents this assessment using a Disaster
       Relief Assessment and Recommendations Checklist. The Program Office does not use
       this checklist.
The Disaster Assistance Program Office also has the ability to gather facts and circumstances to
determine the severity and scope of damage for each disaster through media reports and
independent damage assessments prepared by IRS Disaster Assistance Coordinators. According
to the guidelines, the length and type of tax relief granted should be based on an assessment of
                                                                                             Page 6
                   Procedures Need to Be Updated to Ensure Proper Determinations
                          of Tax Relief for Taxpayers Affected by Disasters



the disaster’s severity and scope. The Internal Revenue Code8 allows the IRS to grant up to
one year of tax relief, and the guidelines allow for two types of tax relief to be granted:
         Standard Tax Relief – Grants postponements of time to file tax returns and pay current
          taxes due. The IRS may also abate penalty and interest on current taxes due without
          suspending compliance activities.
         Standard Tax Relief with Limited Compliance Relief – Grants the standard tax relief
          while also suspending mailing of notices, collection of delinquent taxes, and performance
          of audit activities for the most catastrophic disasters. The use of standard tax relief with
          limited compliance relief should be based on the following factors: number of casualties
          and displaced persons; extent of housing damage; environmental damage (e.g.,
          contaminated water); infrastructure damage (e.g., roads and highways); severity of
          economic or physical damage to key industries, and incapacitated local governments.
          The last time standard tax relief with limited compliance relief was granted to affected
          taxpayers was in Calendar Year 2009.
We found no documentation supporting the assessment of the severity and scope when
determining the length and type of tax relief granted to affected taxpayers during Calendar
Years 2010 and 2011 (through June 30). Without formal documentation, there is no evidence to
support the determination for external stakeholders.
On August 29, 2011, we notified Disaster Assistance Program management that the current
processes and procedures used for assessing disasters and granting tax relief to affected
individuals and businesses are not reflected in their guidelines. We recommended that the IRS
update its guidelines to reflect the current processes. Management agreed with our
recommendation and will ensure that the Disaster Assistance Program guidelines are updated.
To maintain the accuracy of these guidelines, the Program Office must review the guidelines
annually for items that are subject to periodic changes. They must revise the guidelines to
incorporate process improvements or changes in procedures. Management indicated that the last
revision made to the Disaster Assistance Program guidelines was in March 2011. However, we
found this update did not include any revisions to reflect the current processes and procedures
used to assess disasters and grant tax relief to affected individuals and businesses.

Recommendation
Recommendation 1: The Commissioner, Small Business/Self-Employed Division, should
ensure that the guidelines are updated to reflect current processes and procedures used to assess
Federally declared disasters and grant tax relief to affected individuals and businesses. The
guidelines should include a detailed description of the assessment and documentation prepared


8
    Internal Revenue Code § 7508A.
                                                                                               Page 7
                    Procedures Need to Be Updated to Ensure Proper Determinations
                           of Tax Relief for Taxpayers Affected by Disasters



for the review of the unique facts and circumstances of each disaster, including the severity and
scope of damage, when determining the disaster relief period and type of tax relief to be granted.
           Management’s Response: IRS management agreed with the recommendation and
           will revise the Internal Revenue Manual to reflect current processes and procedures used
           by the Disaster Assistance Program Office. The revision will also include procedures to
           determine the appropriate relief levels.

Disaster Relief Indicators Were Not Always Timely Released
The IRS did not always timely release disaster relief indicators from individual tax accounts.9
Analysis of tax accounts as of December 31, 2010, identified 597,513 individual tax accounts
with an erroneous active disaster relief indicator. These erroneous indicators were on the
accounts more than two years after the disaster relief period ended. Each of these tax accounts
still had an active disaster relief indicator from two disasters, one that occurred in October 2007
and one in November 2008. The disaster relief periods were to end in January 2008 and
February 2009, respectively. Not timely releasing disaster indicators could cause erroneous
postponements of the time to file tax returns and pay taxes and the erroneous abatement of
penalties and interest.
On August 1, 2011, we notified IRS management that 597,513 individual tax accounts had active
disaster relief indicators that had not been timely released. We recommended that the IRS
identify and correct the individual tax accounts. IRS management responded that they agreed
with our recommendation and would ensure that the erroneous disaster relief indicators were
released. After further review of these individual accounts and the activity subsequent to the
disaster relief period ending, we found that, although the disaster relief indicators were not
timely released, none of the individuals received erroneous tax relief benefits.
Active disaster relief indicators should systemically release from tax accounts once the current
date exceeds the disaster relief period ending date. However, for these accounts, IRS
management notified us that the disaster relief indicators were not timely released due to a
programming problem that existed with the Customer Account Data Engine (CADE). The
CADE was the IRS’s modernized account information computer system and was intended to
eventually replace the Individual Master File. The IRS has since made a decision to no longer
store tax accounts on the CADE. Based on this decision, the IRS moved the tax accounts stored
on the CADE back to the Individual Master File in June 2011. The movement of these tax
accounts back to the Individual Master File triggered the release of the erroneous active disaster
relief indicators because systemic programming was in place to properly release the indicators.
The IRS needs to ensure programming is in place to systemically release disaster relief indicators
when tax accounts are moved from the Individual Master File to its modernized database that

9
    Our review did not identify any business tax accounts where disaster relief indicators were not timely removed.
                                                                                                               Page 8
                    Procedures Need to Be Updated to Ensure Proper Determinations
                           of Tax Relief for Taxpayers Affected by Disasters



processes and stores tax accounts. For Filing Season10 2012, the IRS will be implementing the
first phase of the CADE 2, a modernized system that moves the IRS to daily processing of
individual tax returns and initializes a modernized relational database. However, no definite date
has been established for when the IRS anticipates replacing the Individual Master File with the
CADE 2.

Recommendation
Recommendation 2: The Commissioner, Small Business/Self-Employed Division, should
ensure programming is in place to systemically release disaster relief indicators when tax
accounts are stored on a database other than the Individual Master File.
           Management’s Response: IRS management agreed with the recommendation. The
           Individual Master File has programming in place for the systemic release of disaster
           relief indicators. The IRS will ensure that when tax accounts are stored in a database
           other than the Individual Master File, this programming will be in place. As part of the
           CADE 2 solution, the database will mirror the Individual Master File in all regards.




10
     The period from January through mid-April when most individual income tax returns are filed.
                                                                                                    Page 9
               Procedures Need to Be Updated to Ensure Proper Determinations
                      of Tax Relief for Taxpayers Affected by Disasters



                                                                                     Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to assess the efficiency and effectiveness of the IRS’s disaster relief
assistance. To accomplish our objective, we:
I.     Determined if procedures used by the IRS to assess Federally declared disasters and grant
       tax relief were effective.
       A. Interviewed management and discussed the processes and procedures for assessing
          Federally declared disasters and granting tax relief to affected individuals and
          businesses.
       B. Determined whether established procedures were effective for assessing the severity
          and scope of Federally declared disasters.
           1. Determined if sufficient disaster information was provided by the FEMA to
              efficiently and effectively assess Federally declared disasters.
           2. Reviewed IRS Disaster Declarations and Disaster Relief Memorandums for
              Federally declared disasters that occurred in Calendar Years 2010 and 2011
              (through June 30).
       C. Determined whether established procedures were effective for determining that tax
          relief was necessary for individuals and businesses affected by a Federally declared
          disaster.
       D. Assessed the effectiveness of the processes and procedures for manually inputting
          disaster relief indicators on taxpayer accounts for taxpayers who self-identify.
       E. Determined if timeliness standards were in place and were effective for assessing
          Federally declared disasters and granting tax relief to affected individuals and
          businesses.
II.    Evaluated the effectiveness of IRS processes and procedures for identifying affected
       individuals and businesses located in zip codes eligible for tax relief in Calendar
       Years 2010 and 2011 (through June 30).
       A. Interviewed management and discussed the processes and procedures for identifying
          individuals and businesses located in zip codes eligible for tax relief.
       B. Determined the effectiveness of the established processes and procedures for
          identifying individuals and businesses located in the zip codes eligible for tax relief.


                                                                                            Page 10
                  Procedures Need to Be Updated to Ensure Proper Determinations
                         of Tax Relief for Taxpayers Affected by Disasters



        C. Assessed whether the IRS accurately identified the zip codes eligible for tax relief
           based on the counties given Individual Assistance by the FEMA.
             1. Using the counties given Individual Assistance by the FEMA, we identified the
                number of zip codes eligible for tax relief using United States Census Bureau data
                (http://www.census.gov).
             2. Using the counties given Individual Assistance by the FEMA, we identified the
                number of zip codes eligible for tax relief using http://www.zip-codes.com, which
                uses the United States Postal Service software package.
             3. Using the counties given Individual Assistance by the FEMA, we compared the
                number of zip codes we identified from http://www.zip-codes.com to the number
                of zip codes that the Modernization and Information Technology Services
                organization identified for systemic input of the disaster relief indicator and
                determined whether the IRS was accurately identifying all zip codes eligible for
                tax relief.
III.    Evaluated the effectiveness of IRS processes and procedures for setting and releasing
        disaster relief indicators on individual and business tax accounts in Calendar Years 2010
        and 2011.
        A. Interviewed management and discussed the processes and procedures for setting and
           releasing disaster relief indicators on individual and business tax accounts eligible for
           tax relief.
        B. Determined the accuracy and timeliness of the input and release of disaster relief
           indicators on individual and business tax accounts eligible for tax relief in Calendar
           Year 2010.
             1. Analyzed a computer extract dated December 31, 2010, that identified individual
                and business taxpayers with a disaster relief indicator set on their tax accounts.
             2. Assessed the reliability of the computer extract by selecting a judgmental sample
                of 10 individual records and 10 business records and comparing certain fields
                (e.g., Transaction Code 971) to the IRS’s Integrated Data Retrieval System1
                records.
             3. Identified the number of individual and business accounts that were manually
                input by analyzing the Document Locator Number of Transaction Code 971 and
                Action Code 688.



1
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 11
              Procedures Need to Be Updated to Ensure Proper Determinations
                     of Tax Relief for Taxpayers Affected by Disasters



         4. Determined if disaster relief indicators were accurately and timely released from
            the individual and business tax accounts when the current date exceeded the
            disaster ending date (secondary date).
         5. Identified and analyzed the individual and business tax accounts located in a zip
            code eligible for tax relief that did not receive a disaster relief indicator on their
            accounts.
         6. Identified and analyzed the individual and business tax accounts not located in a
            zip code eligible for tax relief that received an erroneous disaster relief indicator
            on their tax accounts.
      C. Determined the accuracy and timeliness of the input and release of disaster relief
         indicators on individual and business tax accounts eligible for tax relief in Calendar
         Year 2011.
         1. Analyzed a computer extract dated June 18, 2011, that identified individual and
            business taxpayers with a disaster relief indicator on their tax accounts.
         2. Assessed the reliability of the computer extract by selecting a judgmental sample
            of 10 individual records and 10 business records and comparing certain fields
            (e.g., Transaction Code 971) to the IRS’s Integrated Data Retrieval System
            records.
         3. Determined if disaster relief indicators were accurately and timely released as of
            July 29, 2011, from individual and business tax accounts when the current date
            exceeded the disaster ending date (secondary date).  
IV.   Determined whether the IRS has an effective communication and outreach plan to notify
      IRS operating divisions that tax relief has been granted and the individuals and
      businesses eligible for tax relief.
      A. Interviewed management and discussed the processes and procedures for notifying
         taxpayers affected by a Federally declared disaster who are eligible for tax relief.
      B. Determined if the IRS accurately and timely sent Notice 1155, Disaster Relief from
         the IRS, to individuals and businesses affected by a Federally declared disaster.
      C. Determined the number of individuals and businesses eligible for tax relief that were
         not sent Notice 1155.
      D. Determined the efficiency and effectiveness of alternate sources the IRS used to
         communicate the tax relief available to eligible individuals and businesses.
      E. Determined if a toll-free number was available for assistance and if individuals had
         the ability to self-identify.


                                                                                            Page 12
               Procedures Need to Be Updated to Ensure Proper Determinations
                      of Tax Relief for Taxpayers Affected by Disasters



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Internal Revenue Manual and the IRS
policies, procedures, and practices for providing disaster assistance. We evaluated these controls
by interviewing management, examining applicable information, and reviewing the accounts of
individuals and businesses that had received disaster relief indicators on their tax accounts.




                                                                                          Page 13
              Procedures Need to Be Updated to Ensure Proper Determinations
                     of Tax Relief for Taxpayers Affected by Disasters



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Director
Edward Gorman, Audit Manager
Stephen A. Elix, Lead Auditor
John Jarvis, Auditor
Brian Hattery, Information Technology Specialist
Bonnie Shanks, Referencer




                                                                                    Page 14
              Procedures Need to Be Updated to Ensure Proper Determinations
                     of Tax Relief for Taxpayers Affected by Disasters



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner of Operations, Wage and Investment Division SE:W
Chief, Technology Officer OS:CTO
Director, Communications, Liaison and Disclosure SE:S:CLD
Director, Accounts Management SE:W:CAS:AM
Director, Stakeholder Liaison Headquarters SE:S:CLD:SL:HQ
Director, Stakeholder Liaison Field Operations SE:S:CLD:SL:F
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons: Commissioner, Small Business/Self-Employed Division SE:S
                 Chief, Program Evaluation and Improvement, Wage and Investment Division
                 SE:W:S:PEI




                                                                                   Page 15
                     Procedures Need to Be Updated to Ensure Proper Determinations
                            of Tax Relief for Taxpayers Affected by Disasters



                                                                                          Appendix IV

                                         Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
      Reliability of Information – Actual; 597,513 individual tax accounts had an erroneous active
       disaster relief indicator as of December 31, 2010 (see page 8).

Methodology Used to Measure the Reported Benefit:
We obtained a computer extract from the Data Center Warehouse, Individual Master File1 Entity
Table, where the disaster indicator field was equal to ‘01’ (active) as of cycle 201052
(December 31, 2010). We identified 597,513 individual tax accounts that still had an active
disaster relief indicator from two disasters that occurred, one in October 2007 and one in
November 2008. The disaster relief periods were to end in January 2008 and February 2009,
respectively. After further review of these individual accounts and the activity subsequent to the
disaster relief period ending, we found that they were all eligible for tax relief and none of them
received erroneous tax relief benefits.
Active disaster relief indicators should systemically release from tax accounts once the current
date exceeds the disaster ending date (secondary date).




1
    The IRS database that maintains transactions or records of individual tax accounts.
                                                                                               Page 16
   Procedures Need to Be Updated to Ensure Proper Determinations
          of Tax Relief for Taxpayers Affected by Disasters



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 17
Procedures Need to Be Updated to Ensure Proper Determinations
       of Tax Relief for Taxpayers Affected by Disasters




                                                       Page 18
Procedures Need to Be Updated to Ensure Proper Determinations
       of Tax Relief for Taxpayers Affected by Disasters




                                                       Page 19
